<html>
<title> - S.J. RES. 45, A RESOLUTION CONSENTING TO AND APPROVING THE GREAT LAKES- ST. LAWRENCE RIVER BASIN WATER RESOURCES COMPACT</title>
<body><pre>[Senate Hearing 110-518]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-518
 
S.J. RES. 45, A RESOLUTION CONSENTING TO AND APPROVING THE GREAT LAKES- 
            ST. LAWRENCE RIVER BASIN WATER RESOURCES COMPACT 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY, 30, 2008

                               __________

                          Serial No. J-110-114

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-332 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel

























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois, prepared statement...................................    39
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     1
    prepared statement...........................................    42
Kohl, Hon. Herb, a U.S. Senator from the State of Wisconsin......     3
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York, prepared statement.......................................   100
Specter, Hon. Arlen Specter, a U.S. Senator from the State of 
  Pennsylvania...................................................     2

                               WITNESSES

Davis, Cameron, President, Alliance for the Great Lakes, Chicago, 
  Illinois.......................................................    12
Doyle, Hon. Jim, Governor, State of Wisconsin, and Chair, Council 
  of Great Lakes Governors, Madison, Wisconsin...................     6
Heartwell, George, Mayor, City of Grand Rapids, and Vice 
  Chairman, Great Lakes-St. Lawrence, Cities Initiative Grand 
  Rapids, Michigan...............................................     8
Nelson, Kay L., Director of Environmental Affairs, Northwest 
  Indiana Forum, Portage, Indiana................................    10
Voinovich, Hon. George, a U.S. Senator from the State of Ohio....     4

                       SUBMISSIONS FOR THE RECORD

Birkholz, Hon. Patricia, Michigan State Senator, Lansing, 
  Michigan, statement............................................    20
Cox, Mike, Attorney General, State of Michigan, Lansing, 
  Michigan, letter...............................................    23
Davis, Cameron, President, Alliance for the Great Lakes, Chicago, 
  Illinois, statement............................................    25
Dempsey, Dave, Rosemount, Minnesota, statement...................    30
Doyle, Hon. Jim, Governor, State of Wisconsin, and Chair, Council 
  of Great Lakes Governors, Madison, Wisconsin, statement........    34
Environment America, Christy Leavitt, Washington, D.C., joint 
  letter.........................................................    40
Hall, Noah D., Wayne State University Law School, Executive 
  Director, Great Lakes Environmental Law Center, Ann Arbor, 
  Michigan, statement............................................    45
Heartwell, Hon. George, Mayor, City of Grand Rapids, and Vice 
  Chairman, Great Lakes-St Lawrence and Cities Initiative, Grand 
  Rapids, Michigan, statement....................................    72
International Bottled Water Association (IBWA), Alexandria, 
  Virginia, statement............................................    76
Levin, Hon. Carl, a U.S. Senator from the State of Michigan, 
  statement......................................................    80
Nelson, Kay L., Director, Environmental Affairs, Northwest 
  Indiana Forum, Portage, Indiana, statement.....................    84
Olson, James M., and Michael H. Dettmer, Law Offices of Olson, 
  Bzdok & Howard, P.C., Traverse City, Michigan, statement and 
  attachment.....................................................    86
Speck, Sam, Director, Ohio Department of Natural Resources, Ann 
  Arbor, Michigan, memorandum and attachment.....................   101
Stabenow, Hon. Debbie, a U.S. Senator from the State of Michigan, 
  statement......................................................   108


S.J. RES. 45, A RESOLUTION CONSENTING TO AND APPROVING THE GREAT LAKES-
            ST. LAWRENCE RIVER BASIN WATER RESOURCES COMPACT

                              ----------                              


                        WEDNESDAY JULY, 30, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 1 p.m., in room 
SD-226, Dirksen Senate Office Building, Hon. Russell D. 
Feingold, presiding.

 OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR 
                  FROM THE STATE OF WISCONSIN

    Senator Feingold. Welcome to today's hearing on S.J. Res. 
45, a resolution approving the Great Lakes-St. Lawrence River 
Basin Water Resources Compact.
    And I would like to thank Chairman Leahy for allowing me to 
preside over this full committee hearing. I am pleased to be 
joined by Ranking Member Specter, a fellow Great Lakes Senator, 
and, of course, Senator Kohl, Senior Senator from the State of 
Wisconsin.
    In Wisconsin, our constituents care a lot about water, both 
its quality and its quantity. Over the last year, Lake 
Superior's water levels reached record lows and Lake Michigan's 
levels have been on the verge of doing so, as well.
    This has reminded all of us that despite the vastness of 
the Great Lakes, they are not an unlimited, easily replenished 
resource. Low water levels have a significant impact on 
commercial shipping, recreational boaters, coastal wetlands, 
fisheries, property owners, municipalities, and many other 
interests that rely on the Great Lakes.
    By passing this compact, Congress can join the states and 
the Great Lakes' numerous stakeholders in defending against one 
of the biggest threats to low lake levels, and that is 
increased water withdrawals.
    Pressure on the Great Lakes will only intensify with 
population growth, climatic changes, and contaminated or 
exhausted water supplies. I strongly support putting in place 
management practices now to safeguard the Great Lakes against 
future stresses.
    I especially commend our Governor, Governor Jim Doyle, who 
will testify before us today, and his fellow Governors and 
their state legislatures for their hard work to get us at this 
point already.
    The Great Lakes Compact is the product of a long process of 
evolution. Over a century ago, the first treaty between Canada 
and the United States was put in place to jointly manage the 
shared resource.
    Then after various proposals over the decades to siphon off 
Great Lakes waters to other parts of the country and the world, 
the Great Lakes States developed a regional plan and Congress 
approved it in 1968.
    Nearly 20 years later, the Great Lakes States and the 
provinces of Ontario and Quebec completed the Great Lakes 
Charter, which did not allow the States or Provinces to make 
large diversions without the approval of all the other 
signatories.
    However, this charter is not legally binding. In the Water 
Resources Development Act of 1986, Congress lent support to the 
charter by prohibiting diversions outside the Great Lakes 
Basin, unless approved by all Governors of the Great Lakes 
States.
    But Canada was not legally bound nor was the possibility of 
trading Great Lakes water internationally addressed. In 1998, 
Ontario's issuance of a permit to ship water from Lake Superior 
to Asia served as a wake-up call that more was needed to 
protect the Great Lakes.
    Several proposals emerged in Congress and, ultimately, in 
2000, Congress directed the Great Lakes States to jointly 
develop, with the Canadian provinces, a common conservation 
standard for making decisions about the withdrawal and use of 
water from the Great Lakes Basin.
    Great Lakes States have delivered on that request by 
ratifying the Great Lakes Compact, and now it is Congress's 
turn. Senators Levin and Voinovich have introduced a joint 
resolution to approve the Great Lakes Compact.
    It enjoys bipartisan support, I am happy to say, from all 
16 Great Lakes Senators, those representing Minnesota, 
Wisconsin, Michigan, Illinois, Indiana, Ohio, Pennsylvania, and 
New York.
    A similar measure was also introduced in the House and the 
President of the United States has also, yesterday, announced 
his support of the compact.
    So I look forward to hearing today's testimony on the 
compact and to working with my colleagues to pass it, I hope, 
in the very, very near future.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Now, I turn to the ranking member, Senator Specter.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I am delighted to 
join you today on this hearing for this important compact. The 
issue of diversion from the Great Lakes is one of enormous 
importance.
    Pennsylvania, of course, has Lake Erie. Looking over the 
rest of the Republicans on the Judiciary Committee, I believe I 
am the only Senator with a State which borders on one of the 
Great Lakes. So I thought it especially important that someone 
locally be present here to speak on this issue.
    Lake Erie, of course, is a great tourist attraction. One of 
the first things I did when elected to the U.S. Senate some 
time ago was to work on replenishment of the sand, which is 
virtually an annual rite. It is a great, great tourist resort.
    But this compact to ban new or increased diversion of water 
is really important, to create the commission, to have binding 
standards, review process. All of those are very important.
    But, of course, as a matter of Federal law, constitutional 
law, there has to be a congressional action. And I have sat on 
quite a few matters over the course of years on this committee. 
I can't think of any that is as clear a slam-dunk as this one 
is.
    So while I am not able to stay because of conflicting 
engagements, I am sure that it will be very well received, and 
I have staff here who will be studying the record.
    So thank you very much, Mr. Chairman.
    Senator Feingold. Thank you, Senator Specter. The hearing 
and your appearance here should help us move this legislation 
along very much.
    Now, I turn to my senior colleague, Senator Kohl.

 STATEMENT OF HON. HERB KOHL, A U.S. SENATOR FROM THE STATE OF 
                           WISCONSIN

    Senator Kohl. Thank you, Mr. Chairman. The Great Lakes-St. 
Lawrence River Basin Water Resources Compact before us today 
enjoys broad bipartisan support, including all eight Great Lake 
States, Canadian Provinces, Ontario and Quebec, as well as 150 
business and environmental groups.
    That is a tribute to the hard work of many people, 
especially Governor Jim Doyle of Wisconsin, who is also the 
chair of the Council for Great Lakes Governors. Governor 
Doyle's leadership is one of the main reasons that we are here 
today.
    I would like to thank, also, Cameron Davis Miller, George 
Heartwell, as well as Senators Levin and Voinovich, who head 
the Great Lakes Task Force, for their hard work.
    I would also like to thank my colleague, Senator Feingold, 
for chairing this important hearing today.
    The Great Lakes are one of America's national treasures and 
one of the National Wonders of the World. Holding 20 percent of 
the world's fresh water, the Great Lakes play a vital role in 
the daily lives of the people of Wisconsin, providing drinking 
water, jobs, energy, shipping, as well as recreation.
    Something that important to our prosperity needs to be 
conserved so that future generations can benefit, and the 
compact before us, indeed, does that. It is a binding agreement 
among the Great Lakes States to implement a conservation 
standard for regulating water withdrawals from the Great Lakes 
Basin.
    Specifically, the compact protects the Great Lakes by 
banning new or increased diversions outside of the Great Lakes 
Basin. The compact also requires each State to implement water 
conservation measures, which will promote efficient water use, 
as well as minimize waste.
    Not too long ago, we faced a specter of foreign companies 
exporting water out of the lakes, thereby threatening our 
environment. This compact is a response to those threats, 
making it clear that the lakes are not to be exploited.
    As a cosponsor of this resolution, I look forward to 
working with my colleagues in the Senate to pass this important 
compact.
    We are so happy to be here today, and I thank you, Mr. 
Chairman.
    Senator Feingold. Thank you, Senator Kohl.
    And now I would like to turn to the first panel. Senator 
Voinovich, you want to come forward, please? Senator Levin, I 
suspect, will be here at some point. Senator Levin and Senator 
Voinovich are the lead authors of this critical legislation. I 
thank them for their leadership on it.
    Let me turn to you, Senator Voinovich. Senator Voinovich is 
co-chair of the Senate Great Lakes Task Force. You have 
extensive knowledge of this issue. I appreciate your joining 
Senator Levin in introducing the Great Lakes-St. Lawrence River 
Basin Water Resources Compact.
    And you may proceed with your testimony. Welcome.

  STATEMENT OF HON. GEORGE VOINOVICH, A U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Senator Voinovich. Well, first of all, Mr. Chairman, 
Senator Kohl, I am really grateful to you for having this 
hearing, because it is something that has been long awaited. 
But I was worried that we might not be able to have a hearing 
before we adjourned, and I am grateful for your holding this 
hearing.
    As Senator Kohl said, the Great Lakes are a tremendous 
natural resource. They need to be protected for our future 
generations. One-fifth of the world's surface fresh water--it 
is hard to believe--one-fifth of the world's fresh water are in 
the Great Lakes.
    They cover more than 94,000 square miles; 637 State parks 
in the region accommodate more than 250 million visitors. The 
Great Lakes are significant to the States and Canadian 
Provinces that border them, as well as for millions of other 
people around the country who fish the lakes, visit the parks 
and the surrounding lakes, or use products that are affordably 
shipped to them via the Great Lakes.
    I understand how important the Great Lakes are, because I 
have been fighting the second battle of Lake Erie since my days 
in the State legislature 40 years ago. And some of you may be 
old enough to remember that Lake Erie was the poster child of a 
dying lake and PBC was all over, we had a river in my city that 
burned. And we've come a long way since that time.
    When I came to Congress, one of the first things I got 
involved with, as former Governor of Ohio and the past Chairman 
of the Council of Great Lakes Governors, was to work on 
including language in the 2000 Water Sources Development Act 
directing the States to reach an agreement on how to manage the 
Great Lakes water, and I am very, very proud of how everyone 
has come together and have agreed upon the compact.
    It is going to provide an effective means to safeguard 
water for future generations, while stimulating economic 
development through sustainable use and responsible management 
of the precious resource.
    For example, the compact will ban new diversions from the 
basin, with certain exceptions, and those exceptions would be 
regulated. The States and Provinces will use a consistent 
standard to review proposed uses of the Great Lakes water. This 
is an improvement over existing law, which does not have any 
standard for considering those proposals.
    And, additionally, regional goals for water conservation 
and efficiency will be developed to improve use of this 
resource. Two years later, all proposals for new and increased 
withdrawals of Great Lakes water must incorporate these water 
conservation and efficiency measures. This will promote 
efficient water use and minimize waste.
    Drafting this agreement has been difficult and time-
consuming. The Governors and the premiers have been working 
together on this issue for actually 10 years.
    I applaud the efforts of your Governor, Governor Jim Doyle, 
my Governor, Governor Strickland of Ohio, and the other Great 
Lakes Governors and our two Canadian Premiers for coming 
together and working conscientiously to get this done.
    I want to stress to the members of this committee, though, 
that without this compact, the Great Lakes are left vulnerable 
to the interests that want to deplete the lakes, and Congress 
should approve the compact to protect our Nation's Great Lakes.
    The Great Lakes face so many threats and it will be a great 
step forward if we can ensure that unlimited diversions are not 
a threat. People can breathe easier, less stress.
    Protecting the Great Lakes is not a partisan issue. All of 
us here today came together across party lines to protect our 
Great Lakes.
    The Great Lakes are a centerpiece of the American and 
Canadian landscape. They provide drinking water to tens of 
millions. They are an integral part of our regional economy. 
They are a unique natural resource for my State and the entire 
region, a resource that must be protected not just for us, but 
for our children and for our grandchildren.
    We cannot afford to neglect them and I know we will 
continue fighting to restore, preserve and protect our Great 
Lakes.
    Mr. Chairman, I encourage the committee to pass this as 
expeditiously as possible. Hopefully, we can get a UC on it 
before we get out of here in this Congress.
    And, again, I want to sincerely thank you, thank you, thank 
you for having this hearing.
    Senator Feingold. Thank you, Senator Voinovich. I am very 
pleased to be a part of this effort, and thank you for your 
working with Senator Levin to take a lead on this. And when he 
arrives, we will hear from him. I had a good conversation with 
him already last week about some of the strategy on this. But 
thanks so much, Senator Voinovich.
    If there are no questions for the witness, we will excuse 
you and ask the second panel to come forward.
    Senator Voinovich. Thank you.
    Senator Feingold. Thank you, Senator.
    Would the witnesses please stand to be sworn?
    [Witnesses sworn.]
    Senator Feingold. You may be seated. I would like to begin 
the second panel, of course, by welcoming Governor Jim Doyle of 
Wisconsin. Governor Doyle is a graduate of the University of 
Wisconsin-Madison and earned his law degree from Harvard Law 
School.
    Beginning in 1990, Governor Doyle served three terms as 
Wisconsin's attorney general, where he distinguished himself as 
a national leader in aggressively prosecuting polluters.
    Governor Doyle was sworn in as Wisconsin's 44th Governor on 
January 6, 2003. He was reelected in 2006.
    We have been friends for a long time, Governor, as were our 
fathers, I might add, and I want to thank you very much for 
traveling from Wisconsin to join us today and for sharing your 
great expertise as the chair of the Council of Great Lakes 
Governors.
    You may proceed.

STATEMENT OF HON. JIM DOYLE, GOVERNOR, STATE OF WISCONSIN, AND 
            CHAIR, COUNCIL OF GREAT LAKES GOVERNORS

    Governor Doyle. Well, Senator Feingold and Senator Kohl, my 
two dear friends, thank you so much for all of the leadership 
you have shown on Great Lakes issues and, in particular, we 
thank you for the hearing today and the efforts that you have 
made to expedite this process.
    So we hope that, from a State perspective, that the 
Congress will give its consent quickly and that we can get to 
work actually then implementing the provisions of the compact.
    So your efforts in this regard have been just incredibly 
helpful.
    I want to brag a little about Wisconsin first, but I am 
here as the chair of the council of all of the Great Lakes 
States. But, obviously, our State is defined geographically by 
the Great Lakes. Its northern border, its eastern border--if 
you look at the pictures from space, you can always pick 
Wisconsin out and it's because it is defined by the Great 
Lakes.
    After the State of Michigan, we have the greatest amount of 
Great Lakes shoreline and, in fact, if the Upper Peninsula 
hadn't been taken away from us back in territorial days, we 
would have the largest shoreline.
    The Great Lakes define who we are geographically, but also 
define much of our culture, recreational activities, and have 
been crucial to our commerce from the earliest days as a 
territory and as a State.
    I want to thank the ranking member, Senator Specter, for 
his leadership and support of this, and, of course, Senators 
Levin and Voinovich, who are the primary authors and who have 
been instrumental in getting us to this point.
    So we are here today with a great opportunity for us in the 
Great Lakes Region and, I believe, for the whole entire United 
States, and because it is one of the great world's ecosystems, 
for the world, as well.
    And I testify today as chair of the Council of Great Lakes 
Governors. The Council of Great Lakes Governors is a 
partnership of the Governors of Illinois, Indiana, Michigan, 
Minnesota, New York, Ohio, Pennsylvania and Wisconsin, and the 
Premiers of Ontario and Quebec have also been associate members 
and deeply involved in this process.
    The Council of Great Lakes Governors has been coordinating 
our shared efforts to restore and protect the Great Lakes.
    There have been so many who have been instrumental. You 
will hear from representatives of various groups after me. But 
I want to thank the mayors, the environmental groups, business 
organizations, our trial leaders, and so many across the Great 
Lakes Region who have put in years of time and work and 
analysis and hearings to come to the point that we are at 
today.
    We have heard a lot about the volume of the Great Lakes. 
The way I like to picture it, perhaps most dramatically, is if 
you took the Great Lakes water and spread it over the 48 
contiguous States, the water would be nine-and-a-half feet 
deep.
    That is how much fresh water is in these lakes, and our 
national economy depends on the Great Lakes for industrial 
uses, hydropower, maritime commerce, agricultural irrigation, 
and many other uses.
    Keeping the lakes at healthy levels is also important for 
hydropower, maritime commerce, and many other uses.
    The compact will ensure that the lakes are used sustainably 
in order to continue to provide benefits to all of us.
    In 2005, the Great Lakes Governors, in collaboration with 
regional partners, completed the negotiations of the eight-
State compact and on July 9, 2008, the Great Lakes States 
completed State ratification.
    To become law, Congress must now provide its consent. And 
by implementing this compact, we are taking the necessary steps 
to protect the Great Lakes and sustainably manage this shared 
resource.
    There is a long tradition in this country of States using 
compacts to work together to manage shared water resources. The 
Great Lakes Governors are following this long tradition.
    Historically, States and the Federal Government have 
supported interstate compacts to address water supply, water 
quality and flood control issues within the hydrological 
context of watersheds and basins. There are currently at least 
41 interstate water compacts that have been entered into, and 
all but five States are in such compacts.
    In 2000, the U.S. Congress encouraged the Great Lakes 
States, in consultation with Ontario and Quebec, to provide and 
implement this mechanism.
    And we are coming back to Congress now, 8 years later, with 
having satisfied, I believe, that direction that was given, and 
we have done it truly, I think, in the best spirit of 
federalism, Congress recognizing a large national action, 
calling the States to action.
    The States have worked together. Local governments have 
been involved. And now we come back to our national Government 
for its consent of this very important agreement.
    As a result of this congressional action, as well as past 
commitments made by Great Lakes Governors and Premiers, the 
Great Lakes States, Ontario and Quebec have worked aggressively 
to update and improve the region's water management regime.
    A lot has been said about the need to protect the volume of 
Great Lakes water, but this compact truly gives us the first 
interstate method to manage this water together.
    And we are pledged as a State in Wisconsin, and its 
implementing legislation actually enacted the most significant 
water management--Great Lakes Water management provisions ever 
enacted in the State of Wisconsin.
    So, again, we thank you very much for what you have done on 
this very important issue, I know how much the Great Lakes have 
meant to both of you, and your commitment to their preservation 
over the years.
    And I really look forward to the compact being approved by 
Congress and the States then really moving together, jointly 
together to make sure that we protect both the quantity and the 
quality of Great Lakes water.
    Thank you very much, Senator.
    [The prepared statement of Mr. Doyle appears as a 
submission for the record.]
    Senator Feingold. Thank you, Governor Doyle, very much. And 
after we complete this legislation, we will get together on 
legislation to get the UP back.
    Governor Doyle. Good.
    Senator Feingold. I feel safe saying that while Senator 
Levin isn't here. But I better be nice now, because we are 
turning to a Michigander now.
    I will turn to Mayor George Heartwell of Grand Rapids, 
Michigan. Mayor Heartwell was elected Mayor of Grand Rapids in 
2004.
    Prior to being elected mayor, he was the director of the 
Community Leadership Institute at Aquinas College and currently 
is the president of Pilgrim Manor, a retirement community.
    He earned a bachelor's degree from Albion College and a 
master's of divinity from Western Theological Seminary. Mayor 
Heartwell is currently the vice chairman of the Great Lakes and 
St. Lawrence Cities Initiative.
    So we look forward to hearing your thoughts on this 
important legislation.
    You may proceed, sir.

   STATEMENT OF HON. GEORGE HEARTWELL, MAYOR, CITY OF GRAND 
  RAPIDS, AND VICE CHAIRMAN, GREAT LAKES-ST. LAWRENCE CITIES 
               INITIATIVE, GRAND RAPIDS, MICHIGAN

    Mayor Heartwell. Thank you and good afternoon, Chairman 
Feingold and Senator Kohl. It is truly an honor for me to be 
here this afternoon on this important issue.
    I am George Heartwell, Mayor of Grand Rapids, a city of 
200,000 people and a metropolitan area of about 900,000, 32 
miles inland from Lake Michigan. I also serve as the vice chair 
of the Great Lakes-St. Lawrence Cities Initiative, as the 
chairman mentioned.
    We are a coalition of 56 cities, U.S. and Canadian cities, 
working together to protect and restore the resource of the 
Great Lakes. We like to refer to ourselves as mayors without 
borders, and it is truly a wonderful binational cooperation.
    Water is the life blood of our cities. We have the good 
fortune of living in the basin of a true global fresh water 
treasure. There are good reasons why the original Native 
American people settled in this area, why the explorers came, 
why people settled here and built their cities, and why the 
area continues to provide a very high quality of life and 
economic well being for millions of people.
    It is all about the water.
    Over the past century, our industrial, agricultural and 
residential activities have placed significant stress on the 
water resource of the Great Lakes, whether it is invasive 
species or industrial discharge runoffs, toxic contamination, 
combined sewer overflows, the list is almost endless.
    Most recently, concerns over the quantity of water have 
grown throughout the region. Significant reductions in lake 
levels across the basin are creating problems for recreational 
boating, for commercial shipping for municipal water intake, 
for coastal wetland viability.
    The cities of the Great Lakes and St. Lawrence River are 
doing our part to deal with these water quality and quantity 
issues.
    A study that we have recently completed through the Great 
Lakes Inland Cities Initiative, working with the Great Lakes 
Commission, documented a $15 billion annual investment of local 
governments in the United States and Canada to protect the 
resource.
    My own city of Grand Rapids has invested over $200 million 
and, by the time we are finished, we will have invested $300 
million in combined sewer separation to protect the resource of 
the waters of Lake Michigan.
    In addition, the cities of the Great Lakes and St. Lawrence 
Cities Initiative have launched a water conservation framework. 
Thirty-three cities have now joined to work toward a goal of 15 
percent reduction in water consumption between 2000 and 2015.
    The Great Lakes-St. Lawrence River Basin Water Resources 
Compact is essential for protecting the long-term integrity of 
the water resource.
    The leadership of the Great Lakes Governors, working with 
the Canadian Premiers, has been exemplary in bringing us to 
this point.
    Our organization has supported the compact and agreement 
with resolutions at our last three annual meetings, copies of 
which are included with my testimony.
    More importantly, the compact represents a commitment to 
stewardship of the fresh water of the Great Lakes and St. 
Lawrence River by eight States, based on extensive in put from 
cities, from Native American tribes, as well as many other 
stakeholders.
    As a resource management tool, it calls for the States to 
establish water conservation and efficiency programs to ensure 
the best use of this precious resource.
    There will also be new measures in place to track and 
account for water use much more effectively than we have ever 
done before. In fact, through the work of State Senator Patty 
Birkholz, the Michigan legislature developed a water withdrawal 
assessment tool, which I believe can serve as a useful model 
for other States within the compact.
    Establishing and managing the administration of these 
programs will place, we know, additional financial burdens on 
the States, but we are confident that the high priority of this 
effort will lead to the commitment of the necessary resources 
to make this happen.
    Our cities stand ready to work with our States to provide 
support in whatever way we can.
    The fundamental principle underlying the compact is that 
regions of the country should have the right and the 
responsibility to manage the resources in their area. There is 
no resource more fundamental to the quality of life and well 
being of people than water.
    The United States Constitution explicitly contemplates 
compacts of this nature and Congress, as Governor Doyle has 
pointed out, has provided its consent to 41 interstate compacts 
over the years.
    Much like the States surrounding the Chesapeake Bay, those 
on the Colorado River and Florida with the Everglades, the 
Great Lakes States, working with their cities and other 
partners, are in the best position to ensure the long-term 
integrity of the resource. Working with our Canadian neighbors, 
we are confident that the leadership of the States and 
Provinces, with strong support from cities, will manage this 
resource wisely long into the future so that succeeding 
generations will have the full benefit of this global fresh 
water treasure.
    On behalf of the people of Grand Rapids, the people of the 
cities of the Great Lakes and St. Lawrence Basin, and all the 
people of the region, I strongly urge you to pass S.J. Res. 45 
for the good of the region and the country.
    Thank you very much.
    [The prepared statement of Mr. Heartwell appears as a 
submission for the record.]
    Senator Feingold. Thank you so much, Mayor Heartwell.
    Next, I would like to welcome Ms. Kay Nelson. Ms. Nelson is 
the Director of Environmental Affairs at the Northwest Indiana 
Forum, which is a nonprofit economic development organization 
whose members have strong business interests in the Great 
Lakes.
    Prior to her work at the Northwest Indiana Forum, Ms. 
Nelson served as the regional office director for the Indiana 
Department of Environmental Management. She is a graduate of 
Purdue University's School of Agricultural and Natural 
Resources and Environmental Science.
    And we thank you for joining us today, and you may proceed.

STATEMENT OF KAY L. NELSON, DIRECTOR OF ENVIRONMENTAL AFFAIRS, 
           NORTHWEST INDIANA FORUM, PORTAGE, INDIANA

    Ms. Nelson. Thank you. Good afternoon, Chairman Feingold, 
Senator Kohl, Ranking Member Specter, and members of the 
committee.
    My name is Kay Nelson, as you mentioned, and I serve as 
Director of Environmental Services, Northwest Indiana Forum, a 
regional economic development organization. And our member 
organizations represent $40 billion of commerce for the State 
of Indiana, including industrial and commercial businesses, 
hospitals, financial institutions, universities, hospitals and 
municipalities, all within Lake, Porter and LaPorte in Indiana.
    In 2003, the Forum Environmental Committee created a 
working subcommittee to focus on the Compact. This committee 
included Jim Flannery from ArcelorMittal Steel Indiana Harbor, 
Doug Bley, ArcelorMittal Steel Burns Harbor, Dave Behrens, U.S. 
Steel Gary Works, Linda Wilson and Rees Madsen from BP Whiting 
Refinery, Dean McDevitt, formerly of NIPSCO, and myself, to 
focus on the development of Indiana legislation concerning the 
adoption and implementation of the Compact.
    But a significant directive in the Forum's Environmental 
Committee's mission statement calls for us to work with our 
environmental community on all issues, and, as such, the 
subcommittee decided to expand the working group with members 
to include the ``Lady of the Lakes,'' Lee Botts, who founded 
the Lake Michigan Federation, which is now known as the 
Alliance for the Great Lakes, Tom Anderson and Charlotte Read 
of Save the Dunes, and John Goss from the Indiana National 
Wildlife Federation.
    As a Compact Team, we recognized and established the need 
for a positive discussion to allow for the recognition of the 
diverse viewpoints concerning the Compact as it was moving 
forward, where we found common ground and resolved those issues 
which were of uncertainty.
    The Compact Team was instrumental in the formation of a 
Northwest Indiana Forum position paper, which supported the 
adoption and implementation of the Great Lakes-St. Lawrence 
River Compact during this 2008 Indiana legislative session.
    We also worked to prepare a joint statement for the 
industrial and environmental community stakeholders, as a 
resolution supportive of the Compact process, which was read 
into the record at the initial meeting of the Great Lakes-St. 
Lawrence River Basin regional body meeting in June 2006.
    Additionally, our members provided written and oral 
testimony at numerous public meetings and Indiana legislative 
committee hearings during the 2008 session.
    During the course of the Compact's consideration in Indiana 
and other States, several questions arose regarding the meaning 
and interpretation of some of the key provisions, and our team 
recognized the importance of resolving those questions so that 
everyone clearly understood the intent of the Compact.
    One of those questions was how the impacts of withdrawal 
proposals were to be reviewed under section 4.11 and guided by 
a memorandum provided by the chair of the Governor's working 
group, our team worked closely with the Indiana State 
legislature, specifically, State Senators Beverly Gard, Karen 
Tallian and Ed Charbonneau, to include a provision in section 
10 in Indiana's legislation declaring the legislature's intent 
as to the proper interpretation and application of section 
4.11.2.
    Other States, including Ohio and Pennsylvania, subsequently 
did likewise. That clarification of intent was essential to 
winning the support of industry, environmental, agricultural 
and other stakeholder groups.
    We believe that that clarification provided by the State 
legislators and the working group is critical and, as such, 
have included it in my testimony today.
    Mr. Chairman, I am providing to the committee a copy of the 
December 2005 memorandum from Sam Speck, chair of the working 
group referred to in my testimony, explaining the scope of the 
impact issue and the pertinent provisions from the three 
States' legislation that reflects the Speck memo and the 
Council of Great Lakes Governors' understanding.
    I would respectfully request that these items be included 
in the committee record.
    Senator Feingold. Without objection.
    Ms. Nelson. Thank you.
    The Great Lakes-St. Lawrence River Basin Compact is a means 
to provide an enhanced water management system that is simple, 
durable, efficient, and retains, while respecting, water 
conservation initiatives in place and the authority within the 
basin when administering proposals for new and increased 
withdrawals of water.
    The culmination of the innovative collaborative approach 
utilized and administrated by the Northwest Indiana Forum 
Compact Team and the many years of diligent work that we have 
put into it occurred this past February, February 20, 2008, 
when Governor Mitch Daniels, accompanied by State Senator 
Beverly Gard and State Representative Scott Pelath, signed 
Senate Enrolled Act 45, the Great Lakes Compact bill, into law 
as the first bill out of the session for Indiana this year.
    Thank you for this opportunity to join you today and we 
support your passage of the resolution.
    [The prepared statement of Ms. Nelson appears as a 
submission for the record.]
    Senator Feingold. Thanks so much, Ms. Nelson.
    Finally, I would like to recognize Mr. Cameron Davis. Mr. 
Davis is the president of the Alliance for the Great Lakes. 
Prior to working for the Alliance for the Great Lakes, Mr. 
Davis was an adjunct clinical assistant professor of law at the 
University of Michigan Law School.
    He is a graduate of Boston University and of the Chicago-
Kent College of Law. Under Mr. Davis's leadership, the Alliance 
for Great Lakes will be receiving the American Bar 
Association's distinguished achievement award in environmental 
law and policy for 2008.
    This will be the first time a citizens' environmental 
organization will have won this national honor. So we 
congratulate you and thank you for joining us, and you may 
proceed.

 STATEMENT OF CAMERON DAVIS, PRESIDENT, ALLIANCE FOR THE GREAT 
                    LAKES, CHICAGO, ILLINOIS

    Mr. Davis. Thank you and good afternoon, Chairman Feingold 
and Senator Kohl, Ranking Member Specter, and members of the 
committee.
    My name is Cameron Davis, president of the Alliance for the 
Great Lakes. We were formed in 1970 as the oldest nonpartisan 
citizens not-for-profit Great Lakes protection organization.
    Our mission is to conserve and restore the Nation's and the 
world's largest fresh water resource using policy, education, 
local efforts, to ensure a healthy Great Lakes and clean water 
for generations of people and wildlife.
    In that capacity, I was privileged to be appointed by the 
Council of Great Lakes Governors to provide advice in the 
development in the early stages of the standards that are 
embodied in the legislation that is now in front of you.
    I am also fortunate to serve as the co-chair of the Healing 
our Waters-Great Lakes Coalition, which is comprised of more 
than 100 organizations from the region working valiantly to 
restore the Great Lakes every day.
    And I want to say a special thanks to the staff of the 
Council of Great Lakes Governors, including Dave Naftzger, Pete 
Johnson, and I know former Governor Taft of Ohio, with Sam 
Speck and Kate Bartter, did yeoman's efforts to get us to this 
point today.
    As a boy, I used to stand on the shores of Lake Michigan 
during our Sunday family picnics and marvel at how Lake 
Michigan seemed like heaven. The blue waters mirrored the sky 
and the pure white sailboats floated weightlessly, reminding me 
of angels. Just like heaven, Lake Michigan seemed to go on 
forever.
    To me, it was infinite. In fact, about 90 to 95 percent of 
the Nation's fresh surface water is in the Great Lakes.
    But I was also wrong as a boy. Less than 1 percent of Great 
Lakes water is renewed every year through rain, through snow 
melt and groundwater recharge. In other words, when I stood on 
the beach and looked out over those waves, I couldn't have been 
more wrong.
    The Great Lakes are essentially a nonrenewable resource.
    We are entering an era of critical water conservation, and 
we are not alone. According to the United Nations, by 2025, 
some two-thirds of the world's population will be lacking ready 
access to fresh water. They will be water stressed.
    And the only solution, that we can tell, is to live within 
our means. The Great Lakes are one of America's most revered 
national jewels and one of the natural wonders of the world. As 
such, just as we are privileged to enjoy them, we also have a 
responsibility to protect them.
    Understanding this, more than a dozen Governors from three 
political parties called for, and 16 State legislative chambers 
passed, a contract among the States, the Compact that is before 
you now, to establish uniform, binding water use standards for 
the region.
    In a time of skepticism, this is a remarkable sign of 
bipartisan or even tripartisan long-term thinking. Without this 
Compact, the Great Lakes States are vulnerable to depletion.
    We urge you to ratify the Compact now to protect these 
magnificent natural treasures.
    The Compact can serve as an international model for 
bringing parties together to reach an accord on resource 
protection. The longer we wait to ratify the Compact, the more 
we put these waterways at risk, and here is why.
    In the past, when it looked like a community was running 
low on water, it simply turned to a new supply. Watersheds are 
like bank accounts. For every dollar you take out of your bank 
account, you have to replace it with another dollar or, over 
time, you will deplete your account.
    Watersheds act the same way. For every gallon we take out, 
we have to replace it with a gallon. Otherwise, you start to 
deplete your watershed account.
    For the first time ever, we will now have standards, 
including one for return flow, under the compact, that will 
allow the use of some of the watershed's account interest, but 
won't allow us to deplete the account's principal.
    We need the Compact so that we can be good stewards of the 
resource and because there are no new magical supplies of fresh 
surface water waiting for us if we run low.
    In 1998, a small Ontario firm called the Nova Group secured 
a permit to ship millions of gallons of Lake Superior water 
overseas. An astonished public cried foul, asking how this 
could possibly be.
    Several of us who studied the laws and the policies on the 
books found that our laws and our policies were weak and, at 
best, not executed; at worst, nonexistent; and, most times, 
inconsistent from State to State.
    While the Nova permit was ultimately rescinded, it shined a 
light on the problem I mentioned at the beginning of my 
testimony: it happened because many of us had perceived the 
Great Lakes to go on forever. We really haven't had an 
incentive to think that we need to conserve them.
    Congress asked for water conservation standards. In partial 
response to the Nova incident, in 2000, Congress said to us in 
the region and urged the States, in consultation with the two 
Canadian Provinces, to establish common water withdrawal 
decisionmaking standards to achieve water conservation and 
resource improvement.
    While the call for such standards was important, even more 
important was the fact that leaders from all around the Nation 
saw fit to call for the protection of the Great Lakes 
ecosystem. As such, the compact isn't before you for 
consideration simply because we inside the basin want it. It is 
before you because you and your colleagues from around the 
Nation passed a law, as you heard Governor Doyle say before, 
calling for it out of the belief that the Great Lakes are a 
national treasure deserving of national protections.
    Congress asked for new standards and the States, 
municipalities, businesses and public interest groups 
delivered. The compact does exactly what Congress suggested. 
Now, we are asking Congress to finish the job and approve the 
Compact.
    While, 10 years ago, the Nova Group sought a permit to send 
water overseas, the real need for the compact comes from 
within. Maybe because those of us who live, work and play in 
the region perceive it as limitless, we have never had much of 
a motivation to create uniform, binding water use standards. 
There never have been rules of the game to ensure that water 
use decisionmaking is transparent, predictable and fair.
    As such, we have been profligate water wasters. The Compact 
puts the onus on the citizens and the governments of the Great 
Lakes States to prove that if we want more water from the Great 
Lakes, we must first show that it is needed and that 
conservation measures have been exhausted. That is where the 
onus should be.
    If we are going to keep water from being shipped thousands 
of miles away to other parts of the globe, we should be as 
demanding of water conservation from ourselves as we are of 
others.
    The Compact represents the first time in history that all 
jurisdictions, the States and the two Canadian Provinces, 
through a mirror agreement, will have rules of the game for 
managing the Great Lakes.
    The Alliance for the Great Lakes and the Healing our 
Waters-Great Lakes Coalition believe that these waters don't 
simply provide nice neighborhood beaches, prized fishing holes 
or resources for local businesses. Like the Amazon rain 
forests, the plains of the Serengeti, or the holy Himalayan 
mountains, the Great Lakes are among the world's wonders.
    And today, when I take my wife and 2-year-old son to the 
beach, I try to teach him that though the Great Lakes aren't as 
infinite as heaven, as I thought they were when I was boy, they 
still provide the solace and the inspiration of heaven. As 
such, preserving them isn't just a national ecologic and 
economic imperative. Even more important, it is a sacred 
imperative.
    Thank you.
    [The prepared statement of Mr. Davis appears as a 
submission for the record.]
    Senator Feingold. Thank you, Mr. Davis, for your beautiful 
remarks about the Great Lakes. I have had the good fortune this 
month alone to spend a fair amount of time on both Lake 
Superior and Lake Michigan, of course, on the Wisconsin side. I 
was doing some work, but some of it wasn't.
    But your comments remind us of exactly what this means to 
all of us in all the States that are affected. I will also say 
I have never heard more concern when I have been in these 
places, having been going to them for family vacations for many 
years, never heard as much concern as I have heard in the last 
couple of years about water levels, invasive species, and the 
variety of issues, casual comments, as well as formal comments.
    This is a critical time, which makes the timing of your 
great work on this especially valuable.
    Let me just do a few questions.
    Governor Doyle, in your testimony, you emphasized that 
there is already a significant reliance and demands on the 
Great Lakes. Of course, as a Governor, you are also looking to 
the future and expected increasing demands and stresses on the 
lakes.
    Is it fair to say that taking management steps now to 
prevent conflicts in the future is a big reason for the States' 
interest in the compact? Can you say a bit about the common 
motivation among the Great Lakes States to get this compact in 
place now?
    Governor Doyle. We are truly looking forward in Wisconsin, 
I know this is true across the region, of joining together 
through what the Compact will create, the Great Lakes-St. 
Lawrence River Basin Water Resources Council, by which we will 
set up the first real data-driven research on what the effects 
are of various actions taken in the Great Lakes Basin so that 
we can operate with facts; that we will operate under a joint 
standard, but leaving it to each State.
    The beauty of this compact is it truly recognizes 
federalism. We will operate under a commonly accepted standard 
of no harm to the water of the basin. But we allow the States, 
for the uses within the Great Lakes Basin, to make their own 
decisions about how we are going to manage and do that.
    But we also recognize that on issues like--that I know you 
have been deeply involved in, Senator--invasive species, 
Wisconsin can't solve invasive species without all of the other 
States and Provinces working together, and Congress.
    On the issue of really a long-term cleaning up of some of 
the old water treatment plants that surround the Great Lakes, 
we need to have that kind of unified effort.
    On the issue of invasives and balanced water, we can't have 
one State have the advantage over another because their ports 
don't have various standards--don't have uniform standards, 
where their port gets greater use, while another State that has 
done the right thing in imposing standards on balanced water 
loses business.
    So these are the reasons that we have to act jointly and I 
think that what has happened here is that the States have come 
to understand that we are in this together and isn't Wisconsin 
against Michigan or Indiana. It is all of us making sure that 
this incredible resource is there for us.
    I would add one final point that is very important. With 
the cost of gasoline, I believe that shipping in the Great 
Lakes is going to see a great resurgence and we want to have 
good, clean, modern ports and we want to have good commercial 
activity in these lakes.
    I think, once again, most of us see the--once again, we are 
going to see a resurgence of shipping, resurgence of economic 
activity.
    And, finally, I would like to say this, which is, to me, 
one of the most interesting points of this in the long run and 
the importance to our region.
    We believe, as we protect the Great Lakes water, that as 
you go down in the coming years and water becomes a scarce 
resource in other parts of the country and world, people are 
going to realize that they ought to live and work and have 
their businesses near areas of plentiful water and we, in the 
future, I believe, are going to be the center of great economic 
growth and renewal around the Great Lakes, as well.
    So all of those reasons that we really see is coming 
together as States to manage these waters together and to do it 
effectively.
    Senator Feingold. Thank you, Governor.
    Mayor Heartwell and Ms. Nelson, you both touched on this in 
your testimony and I would like you to elaborate, if you would, 
on the public involvement in the compact's development.
    Do you feel local government, Mayor Heartwell, and your 
member businesses, Ms. Nelson, were given ample opportunities 
for input and was it a fair and sound public involvement 
process?
    Mayor Heartwell?
    Mayor Heartwell. Thank you, Mr. Chairman. The Governors 
went out of their way to include local initiatives in the 
cities.
    From the beginning, cities were included in the discussion. 
It was a very open and inclusive process. I want to take this 
opportunity to thank and congratulate Governor Doyle and his 
colleagues, including my own great Governor, Jennifer Granholm, 
for opening the door so that we could be at the table with you.
    And our executive director of the Great Lakes-St. Lawrence 
Cities Initiative, David Ullrich, who is with me here today, 
was at all of those meetings through the formation and 
development of the compact and some of the language included in 
the compact, specifically that relating to local 
municipalities, is there at the urging of Mr. Ullrich.
    So we feel, from our perspective, it was a very open and 
inclusive process and we are grateful for that.
    Senator Feingold. Ms. Nelson?
    Ms. Nelson. Mr. Chairman, thank you. We are very excited 
and proud of the public process that we had in northwest 
Indiana. As I mentioned in my testimony, we provided the joint 
industrial-environmental resolution.
    We are the only State to have done that when the regional 
body met in 2006. We took a great deal of time and effort to 
identify our points of agreement and once the environmental 
stakeholder groups and the business stakeholder groups 
identified those, we then initiated a very aggressive campaign, 
so to speak, to utilize the various venues in northwest 
Indiana, the public meeting format, meeting with our cities 
locally, as well as businesses that were outside of our 
membership and folks in Indianapolis from the Department of 
Natural Resources, the Governor's office, and the legislators 
there.
    We hosted probably about 15 or 20 local meetings to allow 
the public to participate and we are very proud of what we have 
accomplished in that fashion.
    Senator Feingold. Thank you. It was my impression that the 
public involvement process was pretty extensive and I 
appreciate your confirming that.
    And just as a side note, Mayor Heartwell, I appreciated 
seeing reference in your testimony to the burning of the 
Cuyahoga River--I do, of course, remember that--which, of 
course, helped lead to the enactment of the Clean Water 
Restoration Act in 1972, I think, through the role of my 
predecessor, the great Senator Gaylord Nelson of Wisconsin, on 
this and other critical legislation.
    As you may know, I am leading the Senate effort to prevent 
recent Supreme Court decisions from removing protections for 
critical wetlands and headwater streams that were granted by 
the Clean Water Act.
    So despite progress over the last 35 years, we are facing 
another setback for Great Lakes water quality until Congress 
acts on that, as well.
    Do you want to comment on that?
    Mayor Heartwell. Thank you, Mr. Chairman. Thank you for 
your leadership on the Clean Water Act. That is another 
critical piece of legislation for us.
    But I really want to add to what Ms. Nelson said, that the 
Governors also went out of the way to include the first 
nations, the tribes who were also at the table. Their 
fingerprints, as it were, are all over this document.
    So we appreciated that, as well.
    Senator Feingold. Mr. Davis, certainly, a threat of 
continued out-of-basin withdrawals served as an impetus for the 
Compact, but responsible in-basin management is equally 
important.
    Can you discuss just a bit about the Compact's provisions 
that have to do with the in-basin water conservation and 
management requirements?
    Mr. Davis. Sure, Mr. Chairman. It's a great question.
    I think one of the things that is very exciting about this 
Compact is it doesn't necessarily do what other compacts do, as 
you may see them, where it treats a water body as a pie, slices 
up the pie and then gives different pieces of the pie to 
different people.
    What this really does is puts the onus on us inside the 
basin to help monitor, to help plan and to conserve water 
inside the basin.
    Water can be lost in all manner of ways. It doesn't have to 
just be sent through big straws or pipelines outside of the 
basin.
    And so many of the things, especially that fall under 
section 4.2 of the Compact, call for an overall plan with goals 
and objectives for the entire basin. Then the parties, meaning 
the States and the Provinces, have to do their own plans and 
then, after that, those plans have to be effectuated to help us 
get to water conservation, because in the end, it will help us 
save on energy, it will help reduce stress on our aging 
infrastructure, and have all manner of benefits that would be 
very helpful to us inside the basin.
    Senator Feingold. I do think this in-basin point is 
something that more people understand or realize the tremendous 
significance of it.
    Thank you to all the witnesses for testifying before us 
today. Because of your efforts and our joint efforts, there is 
tremendous momentum now behind the Great Lakes Compact, and it 
is largely thanks to you and many other committed individuals.
    Governor Doyle, you and your fellow Governors have provided 
great leadership on the issue. I also want to commend the State 
legislatures, which all ratified the compact.
    And, of course, my thanks and appreciation to Mayor 
Heartwell, Ms. Nelson, and Mr. Davis, and all the individuals 
and interests you represent for being supportive of the compact 
and helping to get it to where it is today.
    I thank you for your continued support, look forward to 
working with you in the final step of obtaining congressional 
consent and approval for the Great Lakes Compact.
    This hearing was an important step and I want to again 
thank Chairman Leahy and Ranking Member Specter for helping 
make this happen.
    And without objection, I will place in the record 
statements submitted by Dave Dempsey, Noah Hall with Wayne 
State University, and Environment America, and, also, the 
Michigan attorney general.
    One final point is that the hearing record will remain open 
for 1 week for additional materials and written questions for 
the witnesses to be submitted. As usual, we will ask the 
witness to respond promptly to any written questions so that 
the record of the hearing can be completed.
    Thank you all very much. And the hearing is adjourned.
    [Whereupon, at 1:55 p.m. the hearing was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
